                                                  52964                       Federal Register / Vol. 74, No. 198 / Thursday, October 15, 2009 / Notices

                                                       Transportation Intermediary                        of Clive, Iowa; to acquire 100 percent of               The following individuals have been
                                                       Applicants:                                        the voting shares of The Members                      designated to serve on the Commission’s
                                                     Interport Company, Inc. dba Interport                Group, Inc., Clive, Iowa, and thereby                 Performance Review Board:
                                                       Lines, 2300 E. Higgins Road, Ste.                  engage in data procesing, real estate                   ∑ Charles H. Schneider, Executive
                                                       312, Elk Grove Village, IL 60007.                  leasing, and asset management,                        Director, Chairman
                                                       Officer: Antonio J. Alvaro, President              servicing, and collection activities,                   ∑ Willard K. Tom, General Counsel
                                                       (Qualifying Individual).                           pursuant to sections 225.28(2)(vi), (b)(3),             ∑ Pauline M. Ippolito, Deputy
                                                     Consolidators International, Inc., dba               and (b)(14)(i) of Regulation Y.                       Director, Bureau of Economics
                                                       Corrigan’s Express Freight dba                       2. Iowa Credit Union League, and
                                                       Backstage Cargo USA, 8900                          Affiliates Management Company, both                     By direction of the Commission.
                                                       Bellanca Avenue, Los Angeles, CA                   of Clive, Iowa; to acquire 53 percent of              Donald S. Clark
                                                       90045. Officer: Ronen Donde, Vice                  the voting shares of Community                        Secretary
                                                       President (Qualifying Individual).                 Business Lenders, L.L.C., Clive, Iowa,                [FR Doc. E9–24731 Filed 10–14–09: 9:55 am]
                                                    Dated: October 9, 2009.                               and thereby engage in extending credit                BILLING CODE 6750–01–S
                                                  Tanga S. FitzGibbon,
                                                                                                          and servicing loans, pursuant to section
                                                                                                          225.28(b)(1) of Regulation Y.
                                                  Assistant Secretary.
                                                                                                            3. Iowa Credit Union League, and
                                                  [FR Doc. E9–24835 Filed 10–14–09; 8:45 am]                                                                    DEPARTMENT OF HEALTH AND
                                                                                                          Affiliates Management Company, both
                                                  BILLING CODE 6730–01–P                                                                                        HUMAN SERVICES
                                                                                                          of Clive, Iowa; to acquire 89 percent of
                                                                                                          the voting shares of TMG Financial                    Office of Inspector General; Notice for
                                                                                                          Services,Inc., Clive, Iowa, and thereby               Potential Monitors for Quality-of-Care
                                                  FEDERAL RESERVE SYSTEM                                  engage in extending credit and servicing              Corporate Integrity Agreements
                                                                                                          loans, pursuant to section 225.28(b)(1)
                                                  Notice of Proposals to Engage in                        of Regulation Y.                                      AGENCY: Office of Inspector General
                                                  Permissible Nonbanking Activities or                      4. Iowa Credit Union League, and                    (OIG), Department of Health and Human
                                                  to Acquire Companies that are                           Affiliates Management Company, both                   Services (HHS).
                                                  Engaged in Permissible Nonbanking                       of Clive, Iowa; to acquire 90 percent of              ACTION: Notice.
                                                  Activities                                              the voting shares of Coopera Consulting,
                                                                                                          L.L.C., Clive, Iowa, and thereby engage               SUMMARY: The Office of Inspector
                                                     The companies listed in this notice                                                                        General (OIG) is seeking to identify
                                                  have given notice under section 4 of the                in community development advisory
                                                                                                          activities, pursuant to section                       potential organizations to monitor
                                                  Bank Holding Company Act (12 U.S.C.                                                                           health care entities under quality-of-care
                                                  1843) (BHC Act) and Regulation Y (12                    225.28(b)(12)(ii) of Regulation Y.
                                                                                                                                                                Corporate Integrity Agreements (CIA)
                                                  CFR Part 225) to engage de novo, or to                    Board of Governors of the Federal Reserve           with OIG. OIG is interested in receiving
                                                  acquire or control voting securities or                 System, October 9, 2009.
                                                                                                                                                                information from organizations that
                                                  assets of a company, including the                      Jennifer J. Johnson,                                  believe they have the capability to be
                                                  companies listed below, that engages                    Secretary of the Board.                               monitors for quality-of-care CIAs. This
                                                  either directly or through a subsidiary or              [FR Doc. E9–24766 Filed 10–14–09; 8:45 am]            is not a request for proposals and does
                                                  other company, in a nonbanking activity                 BILLING CODE 6210–01–S?≤                              not commit OIG to select or consider a
                                                  that is listed in § 225.28 of Regulation Y                                                                    particular organization to be a monitor.
                                                  (12 CFR 225.28) or that the Board has                                                                         Any information provided to OIG in
                                                  determined by Order to be closely                       FEDERAL TRADE COMMISSION                              response to this notice is strictly
                                                  related to banking and permissible for                                                                        voluntary. The Government will not pay
                                                  bank holding companies. Unless                          Senior Executive Service Performance                  for information submitted in response to
                                                  otherwise noted, these activities will be               Review Board                                          this notice.
                                                  conducted throughout the United States.
                                                                                                          AGENCY:   Federal Trade Commission.                   DATES: Responses may be submitted on
                                                     Each notice is available for inspection
                                                                                                          ACTION:   Notice.                                     an ongoing basis.
                                                  at the Federal Reserve Bank indicated.
                                                  The notice also will be available for                                                                         ADDRESSES: Please mail or deliver any
                                                  inspection at the offices of the Board of               SUMMARY: Notice is hereby given of the                response to the following address:
                                                  Governors. Interested persons may                       appointment of members to the Federal                 Office of Counsel to the Inspector
                                                  express their views in writing on the                   Trade Commission’s Performance                        General, Department of Health and
                                                  question whether the proposal complies                  Review Board.                                         Human Services, Room 5527, Cohen
                                                  with the standards of section 4 of the                  FOR FURTHER INFORMATION CONTACT:                      Building, 330 Independence Avenue,
                                                  BHC Act. Additional information on all                  Karen Leydon, Director of Human                       SW., Washington, DC 20201.
                                                  bank holding companies may be                           Resources, 600 Pennsylvania Avenue                    Prominently identify the title of notice
                                                  obtained from the National Information                  NW, Washington, DC 20580, (202) 326-                  on the first page of any submitted
                                                  Center website at www.ffiec.gov/nic/.                   3633.                                                 response. Electronic responses may be
                                                     Unless otherwise noted, comments                     SUPPLEMENTARY INFORMATION:                            sent to imnotice@oig.hhs.gov.
                                                  regarding the applications must be                      Publication of the Performance Review                 FOR FURTHER INFORMATION CONTACT:
                                                  received at the Reserve Bank indicated                  Board (PRB) membership is required by                 Katie A. Arnholt, Senior Counsel, Office
                                                                                                                                                                of Counsel to the Inspector General,
mstockstill on DSKH9S0YB1PROD with NOTICES




                                                  or the offices of the Board of Governors                5 U.S.C. 4314 (c)(4). The PRB reviews
                                                  not later than October 29, 2009.                        and evaluates the initial appraisal of a              (202) 205–3203, or
                                                     A. Federal Reserve Bank of Chicago                   senior executive’s performance by the                 katie.arnholt@oig.hhs.gov.
                                                  (Colette A. Fried, Assistant Vice                       supervisor, and makes                                 SUPPLEMENTARY INFORMATION:
                                                  President) 230 South LaSalle Street,                    recommendations regarding
                                                  Chicago, Illinois 60690–1414:                           performance ratings, performance                      Background
                                                     1. Iowa Credit Union League, and                     awards, and pay-for-performance pay                     OIG often negotiates compliance
                                                  Affiliates Management Company, both                     adjustments to the Chairman.                          obligations with health care providers


                                             VerDate Nov<24>2008   19:23 Oct 14, 2009   Jkt 220001   PO 00000   Frm 00021   Fmt 4703   Sfmt 4703   E:\FR\FM\15OCN1.SGM   15OCN1
                                                                              Federal Register / Vol. 74, No. 198 / Thursday, October 15, 2009 / Notices                                           52965

                                                  and other entities as part of the                       plans and the timeliness of such actions;             any given quality-of-care CIA requires
                                                  settlement of Federal health care                       (4) proactive steps to ensure that each               consideration of unique and
                                                  program fraud investigations arising                    patient receives care in accordance with              individualized factors. In order to select
                                                  under civil and administrative false                    basic care, treatment, and protection-                an appropriate monitor for any
                                                  claims statutes. These obligations are set              from-harm standards; the governing                    individual quality-of-care CIA, OIG may
                                                  forth in a CIA. A provider or an entity                 regulations; and the policies and                     contact an organization that submitted
                                                  consents to a CIA in conjunction with                   procedures required to be adopted                     information in response to this notice to
                                                  a civil or administrative settlement and                under the CIA; and (5) in residential                 request additional information. In
                                                  in exchange for OIG’s agreement not to                  settings, compliance with staffing                    selecting a monitor, OIG will not be
                                                  seek to exclude that health care provider               requirements. In making these                         limited to organizations that submitted
                                                  or entity from participation in Medicare,               assessments, the monitor conducts site                information in response to this notice.
                                                  Medicaid, and other Federal health care                 visits, analyzes available data, observes               Any organization submitting
                                                  programs under 42 U.S.C. 1320a–7.                       facility and corporate-level committee                information in response to this notice
                                                  False claims submitted in violation of                  meetings, and reviews relevant                        should identify any information that it
                                                  the False Claims Act or Civil Monetary                  documents. The monitor submits                        believes is trade secret, or commercial
                                                  Penalties Law give rise to OIG’s                        regular written reports to the provider               or financial information, and privileged
                                                  permissive exclusion authority under 42                 and OIG.                                              or confidential under exemption four of
                                                  U.S.C. 1320a–7(b)(7).
                                                                                                          Responses to This Notice                              the Freedom of Information Act (FOIA).
                                                     The typical term of a CIA is 5 years.
                                                  CIAs seek to ensure the integrity of                                                                          Consistent with the HHS FOIA
                                                                                                             OIG is interested in hearing from
                                                  Federal health care program claims                                                                            regulations, set forth in 45 CFR Part 5,
                                                                                                          organizations that believe they have the
                                                  submitted by the provider. CIAs                                                                               when OIG receives a request for such
                                                                                                          capability to be a monitor for quality-of-
                                                  generally include requirements to,                                                                            records and OIG determines that OIG
                                                                                                          care CIAs. Please include in any
                                                  among other things: (1) Hire a                                                                                may be required to disclose them, OIG
                                                                                                          response to this notice the following:
                                                  compliance officer; (2) appoint a                                                                             will make reasonable efforts to notify
                                                                                                             1. The name of the organization;
                                                  compliance committee; (3) develop                          2. The size and location(s) of the                 the organization about these facts.
                                                  written standards and policies; (4)                     organization;                                         Daniel R. Levinson,
                                                  implement a comprehensive employee                         3. The qualifications of the                       Inspector General.
                                                  training program; (5) establish a                       organization to serve as a monitor for                [FR Doc. E9–24715 Filed 10–14–09; 8:45 am]
                                                  confidential disclosure program; (6)                    quality-of-care CIAs;
                                                                                                                                                                BILLING CODE 4152–01–P
                                                  restrict employment of ineligible                          4. The organization’s capacity to
                                                  persons; (7) report overpayments,                       monitor large providers with locations
                                                  reportable events, and ongoing                          in multiple States;                                   DEPARTMENT OF HEALTH AND
                                                  investigations/legal proceedings; and (8)                  5. The organization’s clinical
                                                                                                                                                                HUMAN SERVICES
                                                  provide an implementation report and                    experience and expertise;
                                                  annual reports to OIG on the status of                     6. The organization’s experience with              Food and Drug Administration
                                                  the entity’s compliance activities.                     quality assessment, assurance, and
                                                     When resolving cases that involve                    improvement;
                                                                                                             7. The organization’s prior monitoring             [Docket No. FDA–2009–N–0483]
                                                  quality-of-care allegations, OIG often
                                                  requires health care providers to enter                 experience, including, but not limited                Agency Information Collection
                                                  into quality-of-care CIAs. OIG may enter                to, systems reviews and auditing; and                 Activities; Proposed Collection;
                                                  into quality-of-care CIAs with many                        8. An indication of whether the
                                                                                                                                                                Comment Request; Medical Device
                                                  different types of health care providers,               organization has any current or prior
                                                                                                                                                                User Fee Cover Sheet; Form FDA 3601
                                                  including, but not limited to, skilled                  (within the last 5 years) Federal
                                                  nursing facilities, assisted-living                     Government contracts or is on any                     AGENCY:    Food and Drug Administration,
                                                  facilities, psychiatric facilities,                     General Services Administration or HHS                HHS.
                                                  intermediate care facilities for the                    list of approved contractors.
                                                  mentally retarded, hospitals, physician                    OIG will review each response                      ACTION:   Notice.
                                                  practices, dental practices, and                        submitted to this notice to assess
                                                  management companies. Under these                       whether the organization may be                       SUMMARY: The Food and Drug
                                                  quality-of-care CIAs, health care                       appropriate to serve as a monitor for                 Administration (FDA) is announcing an
                                                  providers agree to compliance                           quality-of-care CIAs. The assessment                  opportunity for public comment on the
                                                  obligations that include quality                        will not be for the purpose of making                 proposed collection of certain
                                                  assurance and improvement. One such                     any definitive determination regarding                information by the agency. Under the
                                                  obligation is to retain an appropriately                whether a particular organization is                  Paperwork Reduction Act of 1995 (the
                                                  qualified monitor, which is appointed                   qualified to be a monitor or creating a               PRA), Federal agencies are required to
                                                  by OIG after consultation with the                      list of pre-approved monitors. Factors                publish notice in the Federal Register
                                                  health care provider. The monitor                       that OIG considers when assessing                     concerning each proposed collection of
                                                  selected contracts directly with the                    whether an organization may be an                     information, including each proposed
                                                  provider. The monitor does not enter                    appropriate monitor for a particular CIA              extension of an existing collection of
                                                  into any contractual relationship with                  include, among other things, the                      information, and to allow 60 days for
mstockstill on DSKH9S0YB1PROD with NOTICES




                                                  OIG or act as an agent for OIG.                         organization’s clinical expertise,                    public comment in response to the
                                                     The monitor typically is responsible                 capacity to handle a particular                       notice. This notice solicits comments on
                                                  for assessing the effectiveness,                        monitoring relationship, quality                      Form FDA 3601 entitled ‘‘Medical
                                                  reliability, and thoroughness of the                    monitoring experience, geographic                     Device User Fee Cover Sheet,’’ which
                                                  provider’s: (1) Internal quality control                location, and independence and                        must be submitted along with certain
                                                  systems; (2) response to quality-of-care                objectivity. Each provider and quality-               medical device product applications,
                                                  issues; (3) development and                             of-care CIA is unique. Accordingly, the               supplements, and fee payment of those
                                                  implementation of corrective action                     selection of an appropriate monitor for               applications.


                                             VerDate Nov<24>2008   19:13 Oct 14, 2009   Jkt 220001   PO 00000   Frm 00022   Fmt 4703   Sfmt 4703   E:\FR\FM\15OCN1.SGM   15OCN1
